                           UNCLASSIFIED

        United States Department of State
      and the Broadcasting Board of Governors
                Office of Inspector General




                     Report of Audit

  Review of Radio Sawa
Support to the Transition in
    Post-Saddam Iraq
Report Number IBO/IQO-A-05-02, October 2004




                               IMPORTANT NOTICE
  This report is intended solely for the official use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Office of Inspector General. No secondary distribution may be
  made, in whole or in part, outside the Department of State or the Broadcasting
  Board of Governors, by them or by other agencies or organizations, without prior
  authorization by the Inspector General. Public availability of the document will
  be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
  Improper disclosure of this report may result in criminal, civil, or administrative
  penalties.



                            UNCLASSIFIED
                            TABLE OF CONTENTS


SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
   Equipment Requirements Went Unmet. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
   USAID Dissatisfied With Lack of Progress Reports. . . . . . . . . . . . . . . . . . . . . 12
   Some Radio Sawa Stringers Were Not Fully Qualified. . . . . . . . . . . . . . . . . . . . 12
  Stringer Training Is Ad Hoc . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
   Stringers Were Not Told To Report on the U.S. Humanitarian Response. . . . . 14
   Audience Research Did Not Meet Terms of the Interagency Agreement . . . . 15
   Prior Interagency Cooperation Has Succeeded. . . . . . . . . . . . . . . . . . . . . . . . . . 16
CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
APPENDIX
  A: Partial Listing of Stories Provided by Radio Sawa’s Iraq Stringers,
     May 2003-February 2004. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  B: Partial Listing of Stories on Humanitarian Assistance Broadcast on the
     Program “The World Cares” and Aired on Radio Sawa . . . . . . . . . . . . . . . . . 25
  C: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27
                                      UNCLASSIFIED




                                       SUMMARY

    In May 2003, the United States Agency for International Development
(USAID), Office of Transition Initiatives (OTI) entered into a 12-month inter-
agency agreement with the Broadcasting Board of Governors’ (BBG) International
Broadcasting Bureau (IBB) to develop, produce, and deliver Radio Sawa broadcast-
ing to keep Iraqis well informed about U.S. post-war humanitarian concerns and
reconstruction efforts. The agreement was part of OTI’s effort to respond to the
emerging and urgent needs of the Iraqi people and to support democratic change by
more widely disseminating information considered integral to sustainable develop-
ment for the Iraqi people amid an environment of conflict and disorder.

    Critical tasks for USAID were ensuring that the United States provided timely
humanitarian assistance to the Iraqis and preparing to mobilize significant develop-
ment resources and technical assistance. Equally critical was communicating the
positive message of this assistance throughout that country. To make certain that
accurate and balanced information was broadcast about the situation on the
ground, USAID worked with media outlets outside Iraq, including Radio Sawa,
which has the capacity to broadcast directly to the Iraqi people.

    The interagency agreement between Radio Sawa and USAID was carried out in
Iraq in a period of great turmoil and at considerable personal risk to Radio Sawa’s
Iraq-based staff. Despite security concerns, logistical challenges, and ongoing
operation and maintenance changes, IBB, in an effort independent of the inter-
agency agreement, installed FM transmitters on unique frequencies in Iraq, to
provide greater fidelity and quality for portions of an Iraq audience that had relied
on medium-wave and short-wave radio. Radio Sawa stringers were located at one
time or another in Baghdad, Amarah, Karbala, Basra, Nasiriyah, Najaf, Hillah,
Diwaniyah, Ramadi, Fallujah, Dahuk, Sulaymaniyah, and Kirkuk. They had to
operate and live in that same environment, but without the extensive security
measures that IBB engineers were able to call upon in a matter of days. The fact
that the IBB Kuwait transmitting station staff was reluctant to volunteer to assist
with the FM installation in Iraq reflected these concerns. As one IBB staff member
in Kuwait said, “The war is still on and conditions are neither safe [nor] stable.”




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   1 .

                                      UNCLASSIFIED
                                         UNCLASSIFIED



              Compared to other radio stations in the region, Radio Sawa has a dominant
         audience share in Iraq, as confirmed by the most recent analysis (May 2004) of an
         audience research firm contracted by BBG’s Office of Research. That analysis
         showed 55 percent of Iraqis listen to Radio Sawa on a weekly basis, compared to
         other international broadcasters. (Radio Sawa competitors Radio Monte Carlo and
         the British Broadcasting Corporation’s Arabic service had ratings of 46 percent and
         36 percent, respectively.) The survey also showed that 28 percent of Iraqis
         consider the news and information broadcast on Radio Sawa as “somewhat
         reliable.”




2 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                         UNCLASSIFIED
                                      UNCLASSIFIED




                                       PURPOSE

    The Office of Inspector General (OIG) initiated a review of Radio Sawa’s
support to the transition in post-Saddam Iraq in September 2003. The first
objective of this review was to determine whether USAID funds transferred to
BBG were used effectively to enhance the dissemination of humanitarian and other
information in Iraq. The second objective was to determine whether BBG
successfully launched the three program components of the interagency agreement:
establishing a stringer network, airing programs that address humanitarian and
reconstruction efforts, and conducting audience research. Additionally, OIG
compared the cooperation between USAID and BBG on this agreement with their
cooperation in the management and execution of their successful interagency
agreement for broadcasting to Afghanistan, initiated two years earlier.




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   3 .

                                      UNCLASSIFIED
                                         UNCLASSIFIED




4 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                         UNCLASSIFIED
                                      UNCLASSIFIED




                           RESULTS IN BRIEF

    USAID officials told OIG that BBG did not use the transferred funds to
enhance the dissemination of reports of humanitarian and related information to
Iraq, as expected. Therefore, the full-funding agreement, as initially planned, was
not completed. BBG partially met the principal requirements of the interagency
agreement: setting up a Radio Sawa stringer network in Iraq, broadcasting
humanitarian programming, and initiating audience research. BBG did not provide
periodic performance reports or purchase specific equipment. According to USAID
officials, requests for information from BBG went unanswered, as did requests for
written performance reports on the status of the implementation of the interagency
agreement.

    USAID officials told OIG that some of the stringers hired were not qualified or
lacked adequate training and skills. These officials also told OIG that they based
their expectations for the Iraq initiative on the level of cooperation and success
achieved by their successful Afghanistan initiative with the Voice of America
(VOA) two years earlier. This time, however, USAID officials told OIG they were
generally not pleased with BBG and Radio Sawa’s implementation of the Iraq
transfer agreement.




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   5 .

                                      UNCLASSIFIED
                                         UNCLASSIFIED




6 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                         UNCLASSIFIED
                                      UNCLASSIFIED




               SCOPE AND METHODOLOGY

     OIG conducted this review from September 2003 through May 2004. OIG
interviewed officials from the USAID’s Office of the Controller; the Iraq Team
from the Office of Transition Initiatives (USAID/OTI); the USAID Bureau for
Democracy, Conflict, and Humanitarian Assistance; the USAID Office of
Inspector General; the Department of State’s Bureau of Population, Refugees and
Migration; BBG/IBB officials; Radio Sawa officials in Washington, D.C., and
Amman, Jordan; and personnel at the Radio Sawa Middle East Program Center in
Dubai, United Arab Emirates. Due to the instability and violence in Iraq and the
need for the Radio Sawa stringers there to focus on reporting news, both OIG and
BBG agreed that the OIG team would not travel to Iraq during the course of its
fieldwork in the Middle East. The Radio Sawa staff director instead arranged to
have Radio Sawa’s senior stringer in charge in Iraq, an American citizen, meet with
OIG in Amman, Jordan, where the Iraq-based Radio Sawa staff went periodically
to gain the cash to pay staff and for local expenses and to pick up supplies, with
the assistance of the Radio Sawa office in Amman. OIG also reviewed and
analyzed relevant program and budgetary documents.

    OIG had independent quality assurance panels of experts in Arabic Languages
conduct listening surveys covering two days of the Radio Sawa Iraq broadcast
stream.1

    The audit review was performed in accordance with government auditing
standards and included such test and auditing procedures as necessary under the
circumstances. Major contributors to this report were Louis A. McCall, Assistant
Inspector General for International Broadcasting Oversight; Lenora R. Fuller, audit
manager; and Michele W. Anderson and Carmen Mina, auditors.




1
  According to Radio Sawa, a stream is a unique, 24/7 radio station broadcast on one or more
transmitters to a specific geographical part of the Middle East. Streams are tailored for the
linguistic, cultural, and information situation in each area.



OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   7 .

                                      UNCLASSIFIED
                                         UNCLASSIFIED




8 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                         UNCLASSIFIED
                                      UNCLASSIFIED




                                 BACKGROUND

     When the regime of Saddam Hussein failed to cooperate with inspections
regarding the possible presence of weapons of mass destruction,2 the United States
launched Operation Iraqi Freedom on March 20, 2003. Approximately three weeks
later, U.S. troops entered Baghdad. The city and the regime of Saddam Hussein fell
shortly thereafter. On May 1, 2003, President Bush declared that major combat
operations had concluded. With the Saddam Hussein regime out of power and the
state-controlled media infrastructure in tatters, the United States needed a way to
tell Iraqis about the humanitarian aid being provided and to assist them in the
transition to a democratic society. The United States needed to counter the anti-
American, pro-Saddam Arabic media with timely, reliable information. Otherwise,
deliberate disinformation and rumors would undermine humanitarian assistance
efforts and drive a wedge between the Iraqis and the U.S.-led coalition forces and
the Coalition Provisional Authority (CPA).

    To address the communication deficiencies in post-conflict Iraq, USAID/OTI
entered into an interagency agreement with BBG/IBB to use Radio Sawa of the
Middle East Radio Network to fill the information void, much as USAID did by
cooperating with the VOA in Afghanistan in 2001 following the U.S.-led defeat of
the Taliban regime.3 USAID has worked closely with VOA over the years to
address information and communication deficiencies in conflict situations through
numerous interagency agreements.

     Pursuant to Section 632(a) of the Foreign Assistance Act of 1961, as
amended,4 and the Consolidated Appropriations Resolution of 2003,5 OTI’s Bureau
for Democracy, Conflict, and Humanitarian Assistance allocated $692,000 to
BBG/IBB to enhance humanitarian news and information in Iraq. The project
specifically was to allow Radio Sawa to reach critical audiences with vital informa-
tion until it could set up a Baghdad News Bureau and a network of stringers. This
was intended to support the U.S. foreign policy priority of providing assistance to
the Iraqi people after the war and ensure that the policies of the United States and
its allies would be presented clearly and effectively.

2
  U.N. Res. 1441, November 8, 2002.
3
  IBB/VOA, Humanitarian Broadcast Initiative to Afghanistan (June 2003), submitted to
   USAID/OTI, documents that agreement.
4
  Pub. L. No. 87-195.
5
  Pub. L. No. 108-7

OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   9 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




10 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




                                       FINDINGS



EQUIPMENT REQUIREMENTS WENT UNMET
     At the time of OIG’s visit to Amman, Jordan, OIG found that the stringers in
Iraq did not receive the equipment needed to perform their assignments, such as
tape recorders or high-quality cell phones. USAID officials said there was an
allowance for the purchase of such equipment in the interagency agreement, but as
late as February 2004, they still did not know if the recorders were ever purchased.
The senior stringer in Baghdad expressed frustration to OIG when he did not find a
shipment of new recorders waiting for him in Amman, as expected.

     According to USAID officials, the agreement also stipulated the purchase of a
specific type of satellite cellular telephone, one considered best for remote field
operations. Instead, Radio Sawa officials chose to procure a much cheaper
satellite-based model that lacked the quality and performance of the brand
stipulated in the interagency agreement. The stringers complained of dropped
calls, the need to be outdoors to make or receive calls, and other performance
problems. The senior stringer chose to use a lightweight wireless telephone that he
said was provided by USAID, that functioned well, and was not the property of
Radio Sawa.

     BBG acknowledges that the agreement stipulated the purchase of a specific
type of satellite cellular telephone and other equipment. However, it said all other
equipment was procured with BBG-appropriated funds, rather than funds trans-
ferred from USAID under the agreement. BBG further stated that it compared the
phones specified in the agreement with the phones that were purchased and that
Radio Sawa determined that the latter would suit the needs of its stringers more
effectively. BBG advised OIG that the tape recorders arrived in Amman after the
stringer’s meeting with OIG and were then sent to the Baghdad office, once a safe
method of shipment was secured.

    Nevertheless, the stringers complained that the Radio Sawa wireless telephones
did not work well. The acting director of Radio Sawa’s Middle East Program
Center in Dubai, United Arab Emirates, who was also an engineer, confirmed this


OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   11 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED



          during OIG’s visit to that facility. He indicated he would go to Iraq, following the
          departure of OIG from the Middle East Program Center, to identify the problem
          and how it could be fixed.



          USAID DISSATISFIED WITH LACK OF PROGRESS REPORTS
              USAID officials said requests for information from BBG went unanswered, as
          did requests for written performance and financial reports on the status of the
          implementation of the interagency agreement. USAID officials told OIG that BBG
          did not provide monthly progress reports summarizing the humanitarian
          programming broadcast on Radio Sawa. USAID officials also told OIG that they
          did not know, until receipt of the final report, for certain whether Radio Sawa was
          providing humanitarian reporting.

              BBG pointed out to OIG that the agreement required BBG’s Office of the
          Chief Financial Officer to provide monthly financial reports, but that interim
          progress reports were discretionary. The BBG does acknowledge that it could have
          been more proactive in providing written interim progress reports, but said that
          Radio Sawa did, on occasion, provide detailed oral reports to the appropriate
          USAID official. According to BBG, the Office of the Chief Financial Officer did
          provide the required financial reports to USAID, and BBG provided a final closeout
          report.



          SOME RADIO SAWA STRINGERS WERE NOT FULLY QUALIFIED
              Radio Sawa’s challenge was to create a network of language-qualified freelance
          reporters in key locations throughout Iraq. The stringers were to provide thorough
          coverage of critical events and developments inside Iraq. USAID/OTI wanted,
          and the agreement with BBG required, reports on humanitarian assistance,
          reconstruction, political developments, human rights, and other relevant social
          issues.

              Interviews with Radio Sawa personnel indicated that some of the stringers
          lacked the experience to provide high quality, usable news reports. Some were
          unfamiliar with U.S. policies, and others lacked adequate journalistic skills. The
          reports Radio Sawa received from stringers were often discarded by editors because
          of their poor quality. Some reports, according to Radio Sawa editors, were written
          with overloaded, inflammatory, or unsuitable language.

12 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED



    To gauge the productivity of Radio Sawa’s stringers in Iraq, OIG compared
their output with that of Radio Free Iraq stringers working for Radio Free Europe/
Radio Liberty. OIG found Radio Sawa’s stringers performed poorly, compared with
Radio Free Iraq stringers, who averaged two aired reports a day. Radio Sawa’s
output from its Iraq stringers was a fraction of that. Based on records examined by
OIG at the Middle East Program Center, and interviews with the editors, on most
days, only one or two of the 15 stringers in Iraq contributed reports that were aired.
Radio Sawa staff said some reports from stringers in Iraq contained inappropriate
statements, and some stringers lacked the language and standard skills required to
do radio reporting. Radio Sawa’s Iraq stringers received no formal training, and no
training plans have been developed, as required under BBG’s agreement with
USAID.

     BBG advised OIG that, although Radio Sawa was new in the region, it was able
to establish a stringer network in an environment that had suppressed any
semblance of acceptable journalistic standards. BBG stated that talented and
trained journalists were in short supply in Iraq. Despite these difficulties, Radio
Sawa’s stringer network in Iraq had grown from four stringers in April 2003 to 27
stringers as of September 1, 2004. BBG also disagreed with OIG’s assessment that
some Iraqi stringers had poor language skills. BBG said that newscasts are
delivered in modern classical Arabic, and the use of colloquial Iraqi Arabic terms is
permitted because it provides a local sound for the station. Accordingly, BBG said
that OIG’s comparison of Radio Sawa stringers to those of Radio Free Iraq was
inappropriate because the personnel assets of the two broadcasters were unevenly
matched.

   OIG convened two separate panels of highly credentialed Arabic language
experts and scholars to listen to Radio Sawa broadcasts and assess the
communication and pronunciation skills of the broadcasters and stringers. The
panels found that one stringer switched between classical Arabic and colloquial
Arabic when presenting the news.



STRINGER TRAINING IS AD HOC
    Radio Sawa staff said no written guidance, such as a stylebook or handbook
outlining editorial guidelines, was provided to the stringers in Iraq. No formal or
structured broadcast training had been provided either. This contrasted with the
training Radio Free Iraq reported it provided to its Iraq-based stringers. USAID



OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   13 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED



          officials said they received no reports on training provided to Iraqi stringers.
          However, Radio Sawa’s senior stringer in Amman said that he did train one Radio
          Sawa stringer in Iraq by telephone over the course of a month. In addition, the
          senior stringer in Baghdad told OIG that he would like to terminate several of the
          Radio Sawa stringers in Iraq because they lack good language skills. OIG also
          learned that Radio Sawa’s Washington staff has provided feedback to the stringers
          in Iraq by telephone and e-mail.

              BBG stated that Radio Sawa had difficulty implementing sustained training for
          journalists, who were relatively new to U.S. international broadcasting for security
          reasons. According to BBG, Radio Sawa compensated by bringing some stringers
          to Amman, Jordan, for unspecified amounts of training.



          STRINGERS WERE NOT TOLD TO REPORT ON THE U.S.
          HUMANITARIAN RESPONSE
               According to USAID, the expected humanitarian crisis in Iraq — millions of
          refugees and internally displaced persons — did not materialize, as feared. Never-
          theless, the need for humanitarian and reconstruction aid remained. Also, the
          Department of State’s Bureau of Population, Refugees, and Migration told OIG
          that it sees Iraq as still in a humanitarian crisis. USAID officials, in testimony
          before the Subcommittee on East Asian and Pacific Affairs of the Senate
          Committee on Foreign Relations, said funds were given to Radio Sawa to support
          its reporting on humanitarian and reconstruction efforts. The statement of work
          outlined in the interagency agreement explicitly states that “themes covered by the
          reporters will include humanitarian assistance, country reconstruction, political
          developments, human rights and relevant social stories.” However, USAID
          officials said that, until recently, no written progress reports had been forthcoming
          to validate the existence of such programming. Radio Sawa directed its senior
          stringer in Iraq to travel to Amman, Jordan, to meet with OIG and he stated that he
          was unaware of any instruction to provide humanitarian news coverage. He said
          that he had included such news coverage at his own initiative.

               BBG and Radio Sawa officials said a six-minute program called The World Cares,
          which focused on humanitarian news for the Iraqi audience, exemplified the hu-
          manitarian reporting that aired in the Iraq stream of Radio Sawa from April 1
          through June 24, 2003. After The World Cares went off the air, news about humani-
          tarian and reconstruction issues was integrated into the regular news stream. Other



14 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED



programming such as Challenges, which contains elements of news and non-news
information about humanitarian and reconstruction issues, began in August 2003
and is currently being aired on the Iraq stream. The program runs Monday through
Friday for approximately six minutes. Although Radio Sawa reported on humanitar-
ian and reconstruction efforts, communication on this matter between Radio Sawa
and USAID/OTI and between Radio Sawa in Washington, D.C., and its stringers in
Iraq was deficient.

     BBG advised OIG that the contract with USAID calls for Radio Sawa to
provide “culturally relevant stories and human interest stories.” According to BBG,
Radio Sawa’s program Challenges provides this kind of information. BBG claimed
that the Radio Sawa senior stringer interviewed by OIG in Amman, Jordan, was not
fully aware of USAID’s requirements on humanitarian reporting because he had
recently rejoined Radio Sawa. BBG also said the OIG team did not go to Iraq
because it could not receive a country clearance and that, had OIG traveled to Iraq,
the information it gathered on Radio Sawa programming would not have been so
limited.

     At the onset of the review, it was mutually agreed that the OIG team would
not enter Iraq. The Baghdad senior stringer was sent to Amman, Jordan to meet
with the OIG instead. OIG never planned to enter Iraq and did not request CPA
clearance to do so.



AUDIENCE RESEARCH DID NOT MEET TERMS OF THE
INTERAGENCY AGREEMENT
    Under the terms of the interagency agreement, the IBB Office of Audience
Research was to develop and implement a strategic audience research plan to
evaluate the impact and effectiveness of the new programming. Qualitative
sampling of audience reaction was supposed to involve focus groups or other
audience surveys and begin four months after the start of the new program, if
conditions permitted. Under the agreement, IBB’s Office of Audience Research
was to allow USAID to provide up to 20 percent of the questions for any focus
groups or surveys and was to have the opportunity to comment on methodological
plans and draft questionnaires or discussion questions before these were finalized.

    USAID officials said they did not know of any audience research having been
conducted beginning four months after the start-up of the program as specified in
the statement of work. They also said they were neither given an opportunity to


OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   15 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED



          provide questions for focus groups or surveys, nor to review methodological plans,
          draft questionnaires, or discussion questions. USAID officials told OIG they
          received a phone call from BBG one day before the first audience poll was to take
          place. This was their first opportunity to review the methodology or provide input,
          but it was too late to do so.

              In addition, the agreement specifically stated that audience research would
          evaluate the impact and effectiveness of the new programming. During fieldwork,
          OIG interviewed one of the contractors used for the research. The contractor said
          that the research that was completed measured audience size, not reaction to the
          content of the new programming. It is difficult to determine whether Radio Sawa’s
          Iraq broadcast stream covered the efforts of the Coalition Provisional Authority
          and U.S.-led forces to respond to humanitarian needs and reconstruct post-Saddam
          Iraq effectively because BBG did not conduct reviews to measure this. IBB still
          has not developed an audience research plan to evaluate the impact and effective-
          ness of the new programming.

              BBG acknowledged that, due to an oversight on its part, USAID was not
          contacted in a timely manner to enable it to participate in developing the survey
          that was conducted in Iraq.



          PRIOR INTERAGENCY COOPERATION HAS SUCCEEDED
               USAID/OTI and BBG have a long history of successful cooperation in
          providing assistance during and after conflicts, the Afghanistan Humanitarian
          Initiative being the most recent example. USAID officials said, on the basis of
          experience, that they had expected the same level of communication, feedback,
          and comprehensive reports from Radio Sawa as they received from VOA under the
          Afghanistan initiative. USAID officials said this lack of communication was very
          troubling. They thought that, as Radio Sawa was under VOA (or so USAID
          believed), the offices used to assist VOA with the Afghanistan Initiative would also
          assist Radio Sawa and, presumably, produce a similar product in terms of quality
          and thoroughness.

              However, there was limited or no communication between IBB and Radio
          Sawa’s mid-level or on-line staff regarding the program components of the inter-
          agency agreement. In addition, some relevant, key managers and offices were not
          asked to contribute to the process. One USAID official said Radio Sawa officials
          had a rather “ad hoc management approach” to the agreement. As a result, full


16 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED



funding of the agreement was not completed, according to USAID officials, who
expressed disappointment in how the agreement between USAID/OTI and Radio
Sawa was implemented and administered. Some $292,000 of a total $692,000 was
held back as a result. (Funding authority under the agreement expired April 30,
2004.)

    BBG said the Afghanistan Initiative agreement had different requirements than
the Iraq agreement, including differences in the required weekly reporting of stories
broadcast and in the progress of hiring stringers. BBG, however, acknowledged
that its Office of Development, which provided a strong liaison with USAID
during the Afghanistan Initiative, did not do so during the Iraq Initiative, due to
personnel issues that have since been resolved.

    Although not contained in the original interagency agreement, USAID subse-
quently made clear its desire for regular progress reports, besides the financial
reports. Further, BBG admits that it should have been more proactive in providing
such reports. USAID also expressed consternation at the fact that Radio Sawa did
not use BBG’s Office of Development, nor did it appear to USAID that Radio
Sawa was even aware of that resource.




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   17 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




18 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




                                CONCLUSIONS

    OIG observed that BBG, from the Board level to Radio Sawa management,
was satisfied with the Iraqi stream of Radio Sawa, having received survey results
indicating that Radio Sawa had achieved a dominant audience share in Iraq.
However, under the terms of the agreement, USAID provided only partial funding
to BBG/IBB because of the agency’s inability to demonstrate that funds were used
effectively by Radio Sawa to meet the objective of delivering humanitarian news
and information to the people of Iraq.

    Although BBG launched the stringer network as planned, the lack of skilled,
trained stringers who were properly equipped to report the emerging news about
humanitarian and reconstruction efforts and other information made some stringer
reporting unusable. Additionally, BBG did not properly coordinate the audience
research part of the interagency agreement with USAID.




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   19 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




20 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




                              ABBREVIATIONS

                   BBG                Broadcasting Board of Governors
                    CPA               Coalition Provisional Authority
                     IBB              International Broadcasting Bureau
                    OIG               Office of Inspector General
                     UN               United Nations
               UNHCR                  United Nations High Commission on
                                      Refugees
              UNICEF                  United Nations Children’s Fund
                USAID                 United States Agency for International
                                      Development
         USAID/OTI                    USAID Office of Transition Initiatives
                   VOA                Voice of America




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   21 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




22 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




                                   APPENDICES


    APPENDIX A: Partial Listing of Stories Provided by Radio
       Sawa’s Iraq Stringers, May 2003 - February 20046




6
 These were identified by BBG and Radio Sawa management as stories provided in response to the
interagency agreement with USAID.



OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   23 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




24 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




    APPENDIX B: Partial Listing of Stories on Humanitarian Assistance
    Broadcast on the Program “The World Cares” and Aired on Radio Sawa 7




7
 These were identified by BBG and Radio Sawa management as stories provided in response to the
interagency agreement with USAID.


OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   25 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




26 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




                     APPENDIX C: Agency Comments




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   27 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




28 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   29 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




30 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
                                      UNCLASSIFIED




OIG Report No.IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004   31 .

                                      UNCLASSIFIED
                                          UNCLASSIFIED




32 .   OIG Report No. IBO/IQO-A-05-02, Review of Radio Sawa Support to the Transition in Post-Saddam Iraq - Oct. 2004


                                          UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
